APPENDIX

1a
APPENDIX A
CODICIL TO
LAST WILL AND TESTAMENT
OF
ALBERT P. HERSCHLER
I, Albert P. Herschler, a resident of the County
of Washington, State of Minnesota, being of sound
mind and disposing memory, do hereby make, publish
and declare this as and for a Codicil to my Last Will
and Testament, which was executed by me on April 5,
1960.
FIRST. I do hereby revoke that portion of my
said Last Will and Testament which is described as
Subparagraph (d) in Paragraph SIXTH the following:
“(d) This trust shall terminate upon the death
of the last survivor of my said wife and her sisters, at
which time the entire trust estate shall be distributed
by the Trustee to Saint Paul’s Church in the City of
St. Paul, a corporation, 1524 Summit Avenue, St.
Paul, Minnesota. The Trustee may make such
distribution in kind or partly in kind and partly in
money. Such proceeds shall become the property of
the aforesaid beneficiary without any restrictions
whatsoever on its use. However, I desire and request
of said beneficiary that said proceedings received by it
be thereafter known as the Albert P. and Helen A.
Herschler Memorial Fund.”

2a
IN WITNESS WHEREOF, I have hereunto set
my hand this 16th day of January 1961.
/s/ Albert P. Herschler

3a
APPENDIX B
LAST WILL AND TESTAMENT
OF
ALBERT P. HERSCHLER
FOURTH. All of the rest, residue, and
remainder of my estate, after the payment of all
lawful charges and payments or distributions
required by the preceding paragraphs, of whatsoever
nature and wheresoever located, whether now owned
or hereafter acquired, including any property over
which I have power of appointment, I give, devise,
bequeath and appoint to First Trust Company of
Saint Paul, a corporation organized and existing
under the laws of the State of Minnesota, not for its
own use, however, but as Trustee of separate trusts to
be known as “Trust A” and “Trust B.”
FIFTH. The Trustee of “Trust A” shall
administer the trust estate upon the following terms
and conditions:
(f) This trust estate which my said wife
disclaims or any portion of the trust estate remaining
on the death of my said wife, which my said wife shall
have failed to dispose of in an exercise of the power of
appointment hereinbefore conferred upon her, shall be
added to and become part of “Trust B.”

4a
IN WITNESS WHEREOF, I have hereunto set
my hand to this, my Last Will and Testament, this 5th,
day of April 1960.
Is/ Albert P. Herschler

5a
APPENDIX C
FILED
Court Administrator
JUN 27 1995
STATE OF MINNESOTA

DISTRICT COURT
SECOND JUDICIAL
DIVISION

COUNTY OF RAMSEY

Court File No. CX-67-355788

In The Matter of Trust B Under
the Will of Albert P. Herschler,
Deceased.

FINDING OF FACT AND
ORDER ALLOWING ACCOUNTS
TERMINATING TRUST AND
DISCHARGING TRUSTEE

NOW THEREFORE, IT IS ORDERED,
AD JUGED AND DECREED BY THIS COURT AS
FOLLOWS:
1. That the Petition is hereby granted.
2. That the accounts of said Trustee for the period

6a
November 16, 1992, to March 28, 1995, inclusive, all
acts and doings of said Trustee as herein set forth be
and the same hereby are approved and confirmed.
3. That Trust B under the Will of Albert P.
Herschler is hereby terminated and the residue of the
trust corpus as of March 28, 1995, plus any income
accrued from that date shall be distributed after
payment of all costs, expenses, claims and fees, to
Saint Paul’s Church, 1524 Summit Avenue, St. Paul,
Minnesota.
4. That payment of the Trustee’s fees, as indicated
in the accounts filed herein, constitute fair and
reasonable fees and payment hereof is hereby
confirmed.
5. That Meier, Kennedy & Quinn, attorneys for
Trustee, are hereby allowed a fee of Seven Hundred
Fifty and no/100 Dollars ($750.00).
6. That upon fifing of a proper receipt showing the
Distribution of the remainder of the Trust B property
to Saint Paul’s Church, First Trust Company, Inc. be
discharged as Trustee of Trust B under the Will of
Albert P. Herschler, without further order from the
Court.
Dated: June 26, 1995
BY THE COURT:

JUDGE OF DISTRICT COURT

7a
APPENDIX D
WASHINGTON COUNTY
DISTRICT COURT
JUL 21 1997
MARIE SUNLITIS
COURT ADMINISTRATOR
STATE OF MINNESOTA
COUNTY OF WASHINGTON

DISTRICT COURT
TENTH JUDICIAL
DISTRICT
PROBATE DIVISION

Court File No. PX-95-400308

Estate of Helen A. Herschler,
Deceased.

SETTLEMENT
AGREEMENT AND
MUTUAL RELEASES

4. First Trust, as trustee of Trust A, will
distribute to The Church all of the assets in Trust A,
less court approved fees and expenses of First Trust.
First Trust will make said distribution, to which each
of the parties hereto agree not to interpose any
objections, to The Church within five business days
after the Ramsey County District Court approves the
Final Accounting and disbursement of Trust A assets
to The Church.

8a
First Trust National Association
By: /s/ Lisa A. Hiniker
Its: Vice President

9a
APPENDIX E
Filed
Court Administrator
SEP 3 1997
STATE OF MINNESOTA
COUNTY OF RAMSEY

DISTRICT COURT
SECOND JUDICIAL
DIVISION

Court File No. C8-67-355787
In The Matter of Trust
A Under the Will of Albert
P. Herschler,
Deceased.

FINDINGS OF FACT
ORDER ALLOWING
ACCOUNTS
TERMINATING TRUST
AND DISCHARGING
TRUSTEE

NOW THEREFORE, IT IS ORDERED, ADJUDGED
AND DECREED BY THIS COURT AS FOLLOWS:
1. That the Petition is hereby granted.
2. That the accounts of said Trustee for the period
November 16, 1992 through July 22, 1997, inclusive,
and all acts and doings of said Trustee as herein set
forth be and the same hereby are approved and
confirmed.
3. That Trust A under the Will of Albert P.

10 a
Herschler is hereby terminated and the residue of the
trust corpus as of July 22, 1997, plus any income
accrued from that date shall be distributed after
payment of all costs, expenses, claims and fees, to
Saint Paul’s Church, 1524 Summit Avenue, St. Paul,
Minnesota.
4. That payment of the Trustee’s fees, as indicated
in amounts filed herein, constitute fair and reasonable
fees and payment hereof is hereby confirmed.
5. That Meier, Kennedy & Quinn, attorneys for the
Trustee, are hereby allowed a fee of Eight Hundred
Fifty and no/100 Dollars ($850.00) for this matter.
6. That upon filing of a proper receipt showing the
Distribution of the remainder of the Trust A property
to Saint Paul’s Church, First Trust Company, Inc. be
discharged as Trustee of Trust A under the Will of
Albert P. Herschler, without further order from the
Court.
Dated: Sent. 3. 1997
BY THE COURT:
Is/ Michael T. DeCourcv
JUDGE OF DISTRIT COURT

11 a
APPENDIX F
WASHINGTON COUNTY
DISTRICT COURT
FEB 10 1998
MARIE SUNLITIS
COURT ADMINISTRATOR
STATE OF MINNESOTA
COUNTY OF WASHINGTON

DISTRICT COURT
TENTH JUDICIAL
DISTRICT
PROBATE DIVISION

Court File No. PX-95-400308

Estate of Helen A. Herschler, PETITION TO ALLOW
FINAL ACCOUNT,
DISTRIBUTE ASSETS
Deceased.
AND DISCHARGE
SPECIAL ADMINISTRATOR

7. The names of Decedent’s spouse, children,
heirs/devisees and other persons interested in
this proceeding so far as known or ascertainable
with reasonable diligence by the Petitioner are:
Name and Mailing Address
See Attached

Relationship and
Interest

12 a

Audrey Heriot
6849 South Juniper
Tempe, AZ 85283

Niece, Heir

Kenneth R. Kunzer
2764 Chisholm Ave. E.
North St. Paul, MN 55109

Nephew/Heir

Gary C. Kunzer
999 Oakridge Avenue
Shoreview, MN 55126

Nephew/Heir

Richard A. Kunzer
7918 Fourth Avenue
Circle Pines, MN 55014

Nephew/Heir

William P. Kunzer
775 Orton Ave. NW
Buffalo, MN 55313

Nephew/Heir

12. This Court’s Order dated July 11, 1997
determined that:
Decedent died testate.
Decedent’s Will is comprised of the Will signed and
dated June 1, 1993.
The Order approved the Settlement Agreement
which is filed with the Court and is made a part of
this Petition. The Order provides that the terms of

13 a
the Settlement Agreement shall govern the
disposition of the available assets in this estate.
13. The available assets are as set forth in the Final
Account.
16. No Personal Representative of the Decedent has
been appointed in Minnesota or elsewhere.
17. The Estate has been fully administered and all
expenses, debts, valid charges and claims allowed
have been fully paid, except:
Payment to the Charities and the Church
pursuant to the Settlement Agreement filed
with the Court and Order of this Court dated
July 11, 1997.
18. A Final Account is filed and presented for
consideration and approval.
19. The property on hand for distribution is as
reflected in the Final Account.
Under penalties for perjury, I declare or affirm
that I have read this document and I know or believe
its representations are true and complete.
/s/ Lisa A. Hiniker
By: Lisa A. Hiniker, Vice
President Date Petitioner

14 a
APPENDIX G
WASHINGTON COUNTY
DISTRICT COURT
MAY 8 1998
MARIE SUNLITIS
COURT ADMINISTRATOR
STATE OF MINNESOTA
COUNTY OF WASHINGTON

DISTRICT COURT
TENTH JUDICIAL
DISTRICT
PROBATE DIVISION

Court File No. PX-95-400308

Estate of Helen A. Herschler,

Deceased.

ORDER ALLOWING
AMENDED FINAL
ACCOUNT AND
SETTLING ESTATE
AND ORDER OF
DISTRIBUTION

The Petition for an Order Allowing Final
Account and Settling Estate and Order of
Distribution, signed by Lisa A. Hiniker, as Vice
President of U.S. Bank Trust, f/k/a First Trust
National Association, came before this Court on May
8, 1998. The Court having heard and considered the
Petition, determines the following:

15 a
7. This Estate has been in all respects fully
administered, and all expenses, debts, valid charges
and all claims allowed against this Estate have been
paid or allowed for, except:
Payment to the Charities and the Church
pursuant to the Settlement Agreement filed
with the Court and Order of this Court dated
July 11, 1997.
IT IS ORDERED:
1. The Petition is granted.
2. The acts of the Special Administrator as shown by
the Amended Final Account and the Petition are
confirmed.
3. The property of the Decedent available for
distribution is as stated above.
4. The Amended Final Account of the Special
Administrator is allowed.
/s/ David Dovscher
Judge
Date: May 8, 1998

16 a
APPENDIX H
FILED
OCT 13 2003
RAMSEY DISTRICT COURT
STATE OF MINNESOTA
COUNTY OF RAMSEY

DISTRICT COURT
SECOND JUDICIAL
DIVISION
Court File No. C8-67-355787

In the Matter of Trust A Under
The Will of Albert P. Herschler

ORDER

Deceased.

Findings of Fact
5. U.S. Bank Trust has distributed all assets of Trust
A as ordered by this Court.
Order
1. The Motion of U.S. Bank Trust for Ex Parte Relief
is hereby granted.
2. Kenneth R. Kunzer’s Petition by Heir of Testator
Seeking Declaration of Resulting Trust on Failure
of Express Testamentary Trust is hereby dismissed
with prejudice.
3. Kenneth R. Kunzer’s Motion to Compel Answers to

17 a
Interrogatories is hereby dismissed with prejudice.
LET JUDGMENT BE ENTERED ACCORDINNGLY
DATED: 10 October 2003

BY THE COURT
Is/ Margaret M. Marrinan
Judge of the District Court

18 a
APPENDIX!
STATE OF MINNESOTA

SECOND JUDICIAL
DISTRICT
COUNTY OF RAMSEY
' DISTRICT COURT
PROBATE COURT DIVISION
Court File No. 62-TR-CV-17-60

In the Matter of:
Trust A Under the Will of
Albert P. Herschler,
Deceased.

FINDINGS OF FACT,
CONCLUSIONS OF
LAW, AND ORDER

Findings of Fact
15. U.S. Bank Trust has distributed all assets of
Trust A as ordered by this Court. In the Matter of
Trust A Under The Will of Albert P. Herschler, Order,
at *2 (Oct. 10, 2013).
Conclusions of Law
19. The Petition fails to state a claim upon which
relief can be granted. Minn. R. Civ. P. 12.02(e). As
previously adjudicated by this Court, pursuant to
Court order, “U.S. Bank Trust has distributed all
assets of Trust A.” In the Matter of Trust A Under The

19 a
Will of Albert P. Herschler, Deceased, C.A. No. C8-67355787 (Ramsey County), Order, at *2 (Oct. 10, 2013).
Order
Kathryn Ann Parenteau’s Petition To Compel
Compliance with a Statutory Trust Accounting
Demand is hereby dismissed, in its entirety, with
prejudice.
LET JUDGMENT BE ENTERED ACCORDINGLY
Dated: December 27. 2017

BY THE COURT

Is/ Robvn Millenacker
Honorable Robyn Millenacker
Judge of District Court
Judgment
I hereby certify the foregoing order
Constitutes the Judgment of the Court.
Court Administrator
Linda Graske, Deputy Clerk
Graske, Linda
Feb 2 2018 9:08 AM

20 a
APPENDIX J
STATE OF MINNESOTA

SECOND JUDICIAL
DISTRICT
COUNTY OF RAMSEY
DISTRICT COURT
PROBATE COURT DIVISION
Court File No. 62-TR-CV-17-60

In the Matter of:
Trust A Under the Will of
Albert P. Herschler,
Deceased.

ORDER

FINDINGS OF FACT AND
CONCLUSIONS OF LAW:
12. The Court also found that Petitioner failed to
State a claim upon which relief could he granted.
Minn.R. Civ. P. 12.02(e). As previously
adjudicated by the Court, pursuant to Court order
“U.S. Bank Trust has distributed all assets of
Trust A.” See In the Matter of Trust A Under the
Will of Albert P. Herschler, Deceased, C.A. No. C867-355787 (Ramsey County), Order, at *2
(October 10, 2013). Additionally, the statute of
limitations and appeal rights for Petitioner’s
claims have long expired.

21 a

Based on the foregoing findings of fact and
conclusions of law, the Court now ORDERS:
1. The January 22, 2018 request for permission to file
a motion for reconsideration of the Court Order
dated December 27, 2017 is DENIED.
2. The request for Amended Findings is DENIED.

3. The request for a NEW TRIAL is DENIED.
4. Unless otherwise ordered, all other orders of the
court shall remain in full force and effect.
5. A copy of this Order shall be served upon all
parties.
Dated: April 17. 2018

BY THE COURT:
/s/ Robyn A. Millenacker
Robyn A. Millenacker
Judge of District Court

22 a
APPENDIX K
CASE 0:20-cv-00882-JRT-KMM Document 16
Filed 06/03/20 Page 1 of 6
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Kenneth R. Kunzer,
Plaintiff,
v.

Case No. 20-CV-0882
(JRT/KMM)

REPORT AND RECOMMENTATION

Lisa A. Hiniker, et al.,
Defendants.

Helen Herschler passed away in 1994. She had been
the principal beneficiary of a trust created under her
husband’s will. The trust granted Ms. Herschler the
power to appoint the entire corpus of the trust upon
her death. Plaintiff Kenneth R. Kunzer argued during
the course of Ms. Herschler’s probate proceedings that
she had exercised that power in her will and had
appointed the corpus of the trust to him. The probate
court found otherwise, determining that Ms.
Herschler had not properly exercised her power of
appointment. Defendant U.S. Bank, as trustee,
distributed all assets of the trust. See In the Matter of .

23 a
Trust A Under the Will of Albert P. Herschler, No. 62TR-CV-17-60 (Minn. Dist. Ct. Apr. 17, 2018).
RECOMMENDATION
Based on the forgoing, and on all of the files,
records, and proceedings herein, IT IS HEREBY
RECOMMENDED THAT:
1. This matter is DISMISSED as follows:
a. The claims arising under federal law be
DISSMISSED WITH PREJUDICE as
frivolous.
b. The claims arising under state law be
DISSMISED WITHOUT PREJUDICE
for lack of subject-matter jurisdiction.
2. Plaintiff Kenneth R. Kunzer’s motion to
vacate the state-court order [ECF No. 10] be
DENIED AS MOOT.
3. Mr. Kunzer be restricted from filing any
new litigation against any of the defendants
to this matter, or litigation that is otherwise
related to the Herschler estate, without the
prior approval of a judicial officer of this
District.
Date: June 3, 2020

/s/ Katherine Menendez
Katherine Menendez
United States Magistrate
Judge

24 a
APPENDIX L
CASE 0:20-cv-00882-JRT-KMM Document 18
Filed 06/17/20
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

KENNETH R. KUNZER, for
Civil No. 20-0882
(JRT/KMM)
himself and all others similarly
Situated,
ORDER
Plaintiff,
v.
LISA A. HINIKER, etal.,
Defendants.

Plaintiff Kenneth R. Kunzer filed an objection to the
June 3, 2020 Report and Recommendation of
Magistrate Judge Katherine M. Menendez. See ECF
No. 16. After a de novo review of Kunzer5 s objection,
this Court adopts the Report and Recommendation of
the Magistrate Judge.
ORDER
Based on the foregoing, and on all of the files,
records, and proceedings herein, IT IS HEREBY
ORDERED THAT:

25 a
1. The June 3, 2020 Report and Recommendation of
Magistrate Judge Katherine M. Menendez [ECF
No. 16] is ADOPTED and the objection of
plaintiff Kenneth R. Kunzer [ECF No. 17] is
OVERRULED.
2. This matter is DISMISSED as follows:
a. The claims arising under federal law are
DISSMISSED WITH PREJUDICE as
frivolous.
b. The claims arising under state law are
DISSMISSED WITHOUT PREJUDICE for
lack of subject-matter jurisdiction.
3. Kunzer’s motion to vacate the state-court order
[ECF No. 10] is DENIED AS MOOT.
4. Kunzer is restricted from filing any new
litigation against any of the defendants to this
matter, or litigation that is otherwise related to
the Herschler estate, without the prior approval
of a judicial officer of this District.
DATED: June 17, 2020
at Minneapolis, Minnesota
/s/John R- Tunheim
JOHN R. TUNHEIM
Chief Judge
United States District Court

26 a
APPENDIX M
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2386
Kenneth Raymond Kunzer For himself and all others
similarly situated
Appellant
v.
Lisa A. Hiniker, an individual predicate actor in
schemes violating federal law providing that fraud
and embezzlement are malum in se offenses, and
employee of U.S. Bank and as Trustee of Trust A &
Trust B under the Last Will and Testament of Albert
P. Herschler... et al.
Defendants - Appellees

Appeal from U.S. District Court for the
District of Minnesota (0:20-cv-00882-JRT)

JUDGMENT

Before COLLOTON, SHEPHERD, and KOBES,

27 a

Circuit Judges.
This court has reviewed the original file of the
United States District Court. It is ordered by the
court that the decision of the district court is
summarily affirmed.
November 24, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

28 a
APPENDIX N
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2386
Kenneth Raymond Kunzer For himself and all others
similarly situated
Appellant
v.
Lisa A. Hiniker, an individual predicate actor in
schemes violating federal law providing that fraud
and embezzlement are malum in se offenses, and
employee of U.S. Bank and as Trustee of Trust A &
Trust B under the Last Will and Testament of Albert
P. Herschler, et al.
Appellees

Appeal from U.S. District Court for the District of
Minnesota (0:20-cv-00882-JRT)

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.

29 a
Judge Benton and Judge Kelly did not participate in
the consideration or decision of this matter.
January 12, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

30 a
APPENDIX O
Constitutional and Statutory
Provisions Involved
U.S. Const, amend, I
(Petition the Government for a Redress of
Grievances)
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridge the freedom of speech, or
of the press; or the right of the people to peaceably
assemble, and to petition the Government for redress
of grievances.
U.S. Const, amend, XIV
(Equal Protection and Due Process Clauses)
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
18 U.S.C. 242
(Deprivation of rights under color of law)
Whoever, under color of any law, statute, ordinance,
regulation, or custom, willfully subjects any person in

31 a
any State, Territory, Commonwealth, Possession, or
District to the deprivation of any rights, privileges, or
immunities secured or protected by the Constitution
or laws of the United States, or to different
punishments, pains, or penalties, on account of such
person being an alien, or by reasons of his color, or
race, than prescribed for the punishment of citizens,
shall be fined under this title or imprisoned not more
than one year, or both.
RICO 18 U.S.C. 656
(Theft, embezzlement, or misapplication
by bank officer or employee)
Whoever, being an officer, director, agent or employee
of, or connected in any capacity with any Federal
Reserve bank, member bank, depository.institution
holding_company, national bank, insured
bank,.branch or.agency of a foreign.bank* or
organization operating under section 25 or section
25(a) £1J of the Federal.Reserve.Act, or a receiver of a
national bank, insured bank, branch, agency, or
organization or any agent or employee of the receiver,
or a Federal Reserve Agent, or an agent or employee
of a Federal Reserve Agent or of the Board of
Governors of the Federal Reserve System, embezzles,
abstracts, purloins or willfully misapplies any of the
moneys, funds or credits of such bank, branch, agency,
or organization or holding company or any moneys,
funds, assets or securities intrusted to the custody or
care of such bank, branch, agency, or organization, or

32 a
agent, officer, director, employee or receiver, shall be
holding company or to the custody or care of any such
fined not more than $1,000,000 or imprisoned not •
more than 30 years, or both; but if the amount
embezzled, abstracted, purloined or misapplied does
not exceed $1,000, he shall be fined under this title or
imprisoned not more than one year, or both.
RICO 18 U.S.C. 1956
(Laundering of monetary instruments)
(a)
(1) Whoever, knowing that the property involved in
a financial transaction represents the proceeds of
some form of unlawful activity, conducts or
attempts to conduct such a financial transaction
which in fact involves the proceeds of specified
unlawful activity(B) knowing that the transaction is designed in
whole or in part(i) to conceal or disguise the nature, the
location, the source, the ownership, or the
control of the proceeds of specified unlawful
activity;

33 a
(b) Penalties.(1) In General.-Whoever conducts or attempts to
conduct a transaction described in subsection
(a)(1) or (a)(3), or section 1957, or a
transportation, transmission, or transfer
described in subsection (a)(2), is liable to the
United States for a civil penalty of not more
than the greater of(A) the value of the property, funds, or
monetary instruments involved in the
transaction; or
(B) $10,000.
RICO 18 U.S.C. 1962
(Prohibited activities)
(a) It shall be unlawful for any person who has
received any income derived, directly or indirectly,
from a pattern of racketeering_activity or through
collection of an unlawful debt in which such has
participated as a principal within the meaning of
section 2, title 18, United Code, to use or invest,
directly or indirectly, any part of such income, or the
proceeds of such income, in acquisition of any interest
in, or the establishment or operation of,
any_enterprise_which is engaged in, or the activities of
which affect, interstate or foreign commerce. A
purchase of securities on the open market for

34 a
purposes of investment, and without the intention of
controlling or participating in the control of the
issuer, or of assisting another to do so, shall not be
unlawful under this subsection if the securities of the
issuer held by the purchaser, the members of his
immediate family, and his or their accomplices in any
pattern or racketeering_activity or the collection of
an_unlawful_debt_after such purchase do not amount
in the aggregate to one percent of the outstanding
securities of any one class, and do not confer, either in
law or in fact, the power to elect one or more directors
of the issuer.
(c) It shall be unlawful for any person employed by or
associated with any enterprise engaged in, or the
activities of which affect, interstate or foreign
commerce, to conduct or participate, directly or
indirectly, in the conduct of such enterprise’s affairs
through a pattern of racketeering activity or collection
of unlawful debt.
MINN. RICO 609.903
(Racketeering)
Subdivision 1. Crime
A person is guilty of racketeering if the person:
(1) is employed by or associated with an enterprise
and participates in the affairs of the enterprise by
participating in a pattern of criminal activity;

35 a
(3) participates in a pattern of criminal activity and
knowingly invest any proceeds derived from that
conduct, or any proceeds derived from the investment
or use of those proceeds, in an enterprise or in real
property.
MINN. RICO 609.05
(Liability for Crimes of Another)
Subdivision 1. Aiding, abetting; liability.
A person is criminally liable for a crime committed
by another if the person intentionally aids, advises,
hires, counsels, or conspires with or otherwise
procures the other to commit the crime.
Subd. 2 Expansive liability.
A person liable under subdivision 1 is also liable for
any other crime committed in pursuance of the
intended crime if reasonably foreseeable by the person
as a probable consequence of committing or
attempting to commit the crime intended.
MINN. RICO 609.52
(Theft)
Subd. 2. Acts constituting theft.
(a) Whoever does any of the following commits theft
and my be sentenced as provided in subdivision 3:

36 a
(1) intentionally and without claim of right takes,
uses, transfers, conceals or retains possession of
movable property of another without the other’s
consent and with intent to deprive the owner
permanently of possession of the property; or
(2) with or without having a legal interest in
movable property, intentionally and without consent,
takes the property out of the possession of a pledgee
or other person having a superior right of possession,
with intent thereby to deprive the pledgee or other
person permanently of the possession of the property;
or
(3) obtains for the actor or another the possession,
custody, or title to property of or performance of
services by a third person by intentionally deceiving
the third person with a false representation which is
known to be false, made with intent to defraud, and
which does defraud the person to whom it is made.
“False representation” includes without limitation:
(4) by swindling, whether by artifice, trick, device,
or any other means, obtains property or services from
another person;

